IN THE
SUPREME COURT OF THE UNITED STATES

Subrina Brenham and Subrina's Tax Service
PETITION ER(s)

VS.
Joseph Kemp and KRR HH Retail, RESPONDENTS

PROOF OF SERVICE

I, Subrina Lynn Brenham, do swear or declare that on this date,
March 22,2021, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an
envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows: I declare
under penalty of perjury that the foregoing is true and correct.
Executed in

meuj q

, 2021

9

